HHS/OIG, Audit - "Review of Claims for Multiple Procedures Performed
in the Same Operative Session in Ambulatory Surgical Centers," (A-07-03-02658)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Claims for Multiple Procedures Performed in the Same Operative
Session in Ambulatory Surgical Centers," (A-07-03-02658)
January 9, 2003
Complete Text of Report is available in PDF format
(412 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our analysis was to evaluate the effectiveness of Empire Medicare
Services' claims processing system in identifying payment reductions for multiple
ambulatory surgical center procedures for calendar years 1997 through 2001.
Regulations require that when multiple services are provided in the same operative
session, the highest paying procedure is reimbursable at the full payment rate
while the other procedures are reimbursable at one-half the normal payment rate.
Our analysis showed that Empire Medicare Services systems failed to identify
such instances, which resulted in provider overpayments for calendar years 1997
through 2001of approximately $5,997, $16,507, $39,525, $40,165, and  $23,888
($126,082), respectively.  Included in the identified overpayments is approximately
$25,482 in beneficiary overpayments for coinsurance.  Most of the overpayments
occurred because the carriers processing system did not identify multiple procedures
performed during the same session when submitted on separate claims.